OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/MALI’S
ECONOMIC GROWTH
ACTIVITIES
AUDIT REPORT NO. 7-688-13-003-P
MAY 31, 2013




DAKAR, SENEGAL

Office of Inspector General


May 31, 2013

MEMORANDUM

TO:                USAID/Mali Mission Director, Gary Juste

FROM:              Regional Inspector General/Dakar, Abdoulaye Gueye /s/

SUBJECT:           Audit of USAID/Mali’s Economic Growth Activities (Report No. 7-688-13-003-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety (without
attachments) in Appendix II.

The report includes 11 recommendations to help USAID strengthen its economic growth
activities in Mali. Based on management’s comments on the draft report and other information
subsequently provided, we acknowledge that management decisions have been reached on
10 of the recommendations (1 through 4 and 6 through 11), and final action has been taken on
Recommendation 10. We agreed with all of the decisions. Recommendation 5 remains without
a management decision because, in accordance with ADS 595.3.1.2, a management decision
cannot be reached until the contract officer specifies the amount of questioned costs allowed
and/or disallowed and sets a target date for collection of any disallowed costs. For more details,
please see page 14.

Please have the responsible official provide us with written notice within 30 days on actions
planned or taken regarding Recommendation 5. Finally, please provide the Audit Performance
and Compliance Division in the USAID Office of the Chief Financial Officer with the necessary
documentation to achieve final action on Recommendations 1, 2, 3, 4, 5, 6, 7, 8, 9, and 11.
Recommendation 10 is closed upon report issuance.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
American Embassy Dakar
Route des Almadies
Dakar, Senegal
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Reports of Achievements Were Not All Accurate, Reliable, or Well Supported ...................... 5 


     Mission Did Not Monitor Projects Adequately ......................................................................... 6 


     Mission Did Not Fully Comply With Environmental Requirements.......................................... 9 


     Partners Were Not Fully Compliant With Branding and Marking Rules ................................ 10 


Other Matters............................................................................................................................. 12 


     Partner Agreements Did Not Include Human Trafficking Provision ...................................... 12 


     Loan Guarantees Increase Prospects For Sustainability ...................................................... 12 


Evaluation of Management Comments................................................................................... 14 


Appendix I—Scope and Methodology .................................................................................... 16 


Appendix II—Management Comments ................................................................................... 18 


Appendix III—FY 2011 Audited Program Indicators .............................................................. 23 




Abbreviations

The following abbreviations appear in this report:

ADS               Automated Directives System
AO                agreement officer
AOR               agreement officer’s representative
CO                contracting officer
COR               contracting officer’s representative
DCA               Development Credit Authority
FY                fiscal year
IICEM             Integrated Initiatives for Economic Growth in Mali
INTSORMIL         International Sorghum, Millet, and Other Grains Collaborative Research Support Program
MAVEN             Mali Agriculture Value Enhancement Network
PMP               performance management plan
RIG               Regional Inspector General
SUMMARY OF RESULTS 

In West Africa’s Sahel region, more than 17 million people are at risk of starvation. Drought,
food shortages, high grain prices, environmental degradation, and large numbers of internal
refugees have contributed to the crisis. Mali is one of the countries most affected, with a Global
Hunger Index level listed as “serious.”1

One of the main challenges to Mali’s food security is an underdeveloped agricultural sector.
Though agriculture is one of the main drivers of Mali’s economy, employing 80 percent of the
country’s labor force and accounting for 39 percent of the gross domestic product,2 it does not
fulfill its potential to promote economic growth. Only 7 percent of arable land is cultivated,
14 percent of potentially irrigable land is irrigated, and 2 percent of certain agricultural products
are grown from improved seeds.3 To increase Mali’s resilience and promote economic growth,
USAID is working to raise farm productivity, strengthen farm-to-market links, and expand
economic opportunities for vulnerable households. Programs help farmers apply new
technologies, supplies, and practices to improve yield, and give them new business skills to
increase production, commercialization, and revenues earned from expanded opportunities.

USAID/Mali obligated and disbursed, respectively, $22.1 million and $19.9 million in fiscal year
(FY) 2011 and $24.2 million and $17.7 million in FY 2012 for economic growth activities. The
Regional Inspector General/Dakar (RIG/Dakar) audited three projects: Integrated Initiatives for
Economic Growth in Mali (IICEM); International Sorghum, Millet, and Other Grains Collaborative
Research Support Program (INTSORMIL); and Mali Agriculture Value Enhancement Network
(MAVEN), shown in Table 1. They account for about 52 percent of the mission’s economic
growth assistance for FY 2012 and are part of Feed the Future, the U.S. Government’s global
hunger and food security initiative that was incorporated into partners’ activities in 2011.

               Table 1. Audited USAID/Mali’s Economic Growth Projects
                    IICEM                INTSORMIL                     MAVEN
                                4
Dates     1/1/2010–12/31/2012       10/1/2007-9/30/2012    4/1/2010–3/31/2013
Type and cost-reimbursement-plus­
                                    cooperative agreement cooperative agreement
amount    fixed-fee contract
                                    $4.2 million           $2.1 million
of award $38.6 million
Partner   Abt Associates Inc.       University of Nebraska ACDI/VOCA
                                                           To improve production,
          To increase economic                             processing, storage, and
                                    To improve sorghum
          growth activities for                            marketing of select crops; to
                                    and millet farmers’
          reducing poverty through                         improve farmers’ business
Objective                           productivity and
          increasing agricultural                          management skills and
                                    incomes in targeted
          productivity, employment,                        agribusinesses; and to
                                    areas of Mali
          and incomes in Mali                              increase access to improved
                                                           inputs and finance

1
   The 2012 Global Hunger Index is based on the proportion of people who are undernourished, the

prevalence of underweight children under the age of 5, and the under-5 mortality rate. 

2
  CIA World Factbook. 

3
  Feed the Future: Strategic Review, USAID/Mali, December 17, 2010. 

4
  IICEM may be extended to December 31, 2013, but the mission had not approved it as of October 2012.



                                                                                                    1
The total amount obligated and expended, respectively, for these three projects was
$12.1 million and $11.3 million in FY 2011 and $17.4 million and $15.6 million in FY 2012.

RIG/Dakar conducted this audit to determine whether USAID/Mali’s economic growth activities
were on track to achieve their main goals of improving the agricultural enabling environment5
and the productivity of the agricultural sector. Though observations from the field and interviews
with beneficiaries suggest that the potential beneficial impact of the program is significant, the
scale is uncertain because of the lack of reliable data. The audit found that not all reports of
achievements were accurate, reliable, or well supported.




      Farmers in Dougouan grow two types of sorghum; one comes from local seed (left), and
      the other is from improved seed (right) introduced by a USAID economic growth project.
      (Photo by RIG/Dakar, October 2012)

Despite the projects’ data quality problems, the activities are having some positive impact. An
independent cost-benefit study of IICEM dated May 2012 showed a 27 percent overall return on
money invested in the four sites analyzed. The study found that the project has increased crop
yields and farmers’ incomes. The construction of small dams increased the amount and duration
of surface water, substantially increasing rice farmers’ yields during the main season. These
dams also raise the water table, enabling potato farming in the off-season with shallow
groundwater irrigation. Through improving the water supply and a credit scheme that increases
farmers’ ability to buy supplies such as seeds, fertilizer, and herbicide, crop yields for
communities IICEM supported have increased dramatically.

5
    Improving the agricultural enabling environment includes activities such as training and policy reforms.


                                                                                                               2
Through INTSORMIL, USAID has disseminated new varieties of sorghum and millet in Mali.
Institut d’Economie Rurale’s and INTSORMIL’s 2010/2011 study on the economic impact of the
new strains showed that they greatly increased yield in the Mopti and Segou Regions. As a
result, farmers were able to produce enough food for their consumption, whereas in previous
years they often experienced food shortages. In some sites, using the new seeds helped
increase yields by up to 84 percent when combined with good rainfall and improved production
techniques like fertilizer use. Higher yields also brought higher incomes.

Through MAVEN, USAID sponsored 51 volunteer experts in fiscal years 2011 and 2012 to
provide technical assistance in the staple foods, horticulture, fisheries, cattle, and poultry
sectors. One volunteer trained a seed company to produce hybrid seeds that improve crop
yield. Another volunteer worked with a cooperative involved in livestock production, training
members on proper health-care techniques to curb the high death rates of sheep and goats
during the rainy season. One other volunteer worked with a fish farming cooperative to build a
leak-proof pond and recommended techniques for building a pond properly—important
measures to reduce people’s reliance on subsistence fish harvesting and to respond to the
dramatic decline of fish in the area.

Despite these notable achievements, the audit found the following problems.

	 Reports of achievements for four of the seven indicators audited were not accurate, reliable,
   or well supported (page 5). Partners did not have enough supporting documentation, and
   one used undocumented estimates and assumptions when reporting results that were not
   correct.

	 The mission did not monitor projects adequately (page 6). It did not monitor partner
   expenses sufficiently, failed to approve key deliverables, and performed infrequent, irregular
   site visits.

	 The mission did not comply fully with environmental requirements (page 9). It did not have
   written procedures to ensure environmental compliance. For example, one of the partners
   audited was implementing activities that ran the risk of having negative impacts on the
   environment, but an environmental mitigation and monitoring plan was not submitted as
   required.

	 Partners did not comply fully with branding and marking rules (page 10). Some warehouses,
   construction sites, and USAID-financed equipment did not have any branding or marking.

	 Partner agreements did not include the required human trafficking provision (page 12).
   Therefore, USAID/Mali cannot terminate an award, without penalty, if the partner,
   subpartner, or their employees engage in human trafficking.

	 USAID/Washington discontinued the loan guarantee program that increases sustainability
   prospects by giving farmers access to credit and agricultural supplies (page 12). That may
   affect the mission’s efforts to increase sustainability.

To address these issues, RIG/Dakar recommends that USAID/Mali:

1. 	 Perform extensive, detailed data quality assessments for economic growth indicators and
     document the use of assessment findings to address any weaknesses identified (page 6).



                                                                                               3
2. 	 Work with Abt Associates Inc. to implement an appropriate data collection and verification
     system and require that it is documented appropriately in the performance management
     plan (page 6).

3. 	 Disclose data weaknesses regarding unreliable, inaccurate, and unsupported data for some
     of the mission’s economic growth activities in its next Federal Managers’ Financial Integrity
     Act evaluation (page 6).

4. 	Provide and document training for contract/agreement officer’s representatives in the
    economic growth team on their official roles and responsibilities (page 8).

5. 	 Determine the allowability of $54,000 in ineligible questioned costs and recover from Abt
     Associates Inc. any amounts determined to be unallowable (page 8).

6. 	Implement a plan to improve the economic growth team’s performance monitoring of
    projects (page 8).

7. 	 Establish written policies and procedures to include data verification as part of performance
     monitoring site visits (page 9).

8. 	Finalize its mission order to require compliance with environmental requirements for its
    entire portfolio (page 10).

9. 	Take measures to require that all future contracts, agreements, and modifications
    incorporate appropriate language regarding environmental compliance and are approved by
    the appropriate officials before projects begin (page 10).

10. Require Abt Associates Inc. to submit an environmental monitoring and mitigation plan for
    approval within 30 days of signing the amended award (page 10).

11. Implement written procedures to require that the implementing partners are fully aware of
    their responsibilities and comply with branding and marking requirements (page 11).

Detailed results appear in the following section, and the scope and methodology appear in
Appendix I. Management comments appear in their entirety in Appendix II, and our evaluation of
management comments is included on page 14 of the report.




                                                                                                4
AUDIT FINDINGS 

Reports of Achievements Were Not
All Accurate, Reliable, or Well
Supported
According to USAID’s Automated Directives System (ADS) 203.3.2, “Performance monitoring is
the ongoing and routine collection of performance indicator data to reveal whether desired
results are being achieved and whether implementation is on track . . . Performance indicators
are the basis for observing progress and measuring actual results compared to expected
results. Performance indicators help answer the extent to which USAID is progressing towards
its objective(s).”

ADS 203.3.11.1, “Data Quality Standards,” states that data must meet the five quality standards
of validity, integrity, precision, reliability, and timeliness to be useful for performance monitoring
and credible for reporting. Data that do not meet these standards could lead to bad decision
making.

The audit found that not all data met the quality standards. Results for four of the
seven indicators audited were not reliable, accurate, or well supported. (Appendix III shows
testing results by partner and indicator. Not all partners were expected to report on all
seven indicators.) Data weaknesses for INTSORMIL and IICEM are discussed below.

INTSORMIL. The project’s data were collected from various sources including subpartners, on-
site assistants, and visiting university project leaders. But the project coordinator in Mali and the
project leaders in the United States could not provide supporting documentation to account for
the results in three of the four indicators that INTSORMIL reported on. Additionally, when the
team tried to link the data reported in one of the subpartner’s available progress reports to the
supporting documentation, we found discrepancies between documents.

IICEM. IICEM officials could not provide sufficient supporting documentation for three of the
six indicators that they reported on under the project. Results for one were inflated, and results
for the other two were based on undocumented estimates and assumptions, which testing
proved were not accurate.

For the indicators Number of farmers and others who have applied new technologies or
management practices as a result of U.S. Government assistance (farmers) and Number of
hectares under improved technologies or management practices as a result of U.S. Government
assistance (hectares), we reviewed subpartners’ data collection sheets for 103 out of
402 farmers’ cooperatives in FY 2012 and found that of the 5,829 farmers IICEM reportedly
assisted, only 2,320 (or 40 percent) could be validated. Similarly, only 2,275 (or 17 percent) of
the 13,288 hectares reportedly under improved technologies could be validated. When reporting
results to USAID, instead of using information provided in subpartners’ data collection sheets,
IICEM used undocumented estimates and assumptions that testing showed were not accurate.

For the indicator Value of incremental sales (collected at farm-level) attributed to Feed the
Future implementation, $1.8 million of the $4.2 million reported (or 43 percent) for FY 2011 was
not well supported. Results for this indicator were inflated because IICEM was collecting data



                                                                                                    5
from both farmers and merchants even though the indicator definition states that data should be
collected only from farms directly assisted by the project. For FY 2011, IICEM’s reported results
of $4.2 million were inflated by at least $548,929.6 For FY 2012, of the $13.8 million reported,
data were inflated because IICEM included merchants’ data, inflating results by $8.6 million, and
it measured gross instead of incremental sales, inflating data by $4.2 million.

Several factors contributed to these weaknesses. Among them were poor records maintenance,
improper use of the monitoring and evaluation system, and lack of proper procedures for
verifying data. For example, subpartners did not submit information regularly, complete the data
collection sheets properly, or understand what to report on. As a result, IICEM did not use the
data that subpartners reported and instead used undocumented estimates and assumptions
when reporting results to USAID. When IICEM collected information on sales revenue from a
merchant, it was done orally without any verification of the merchant’s records.

Furthermore, although the mission performed a data quality assessment in 2011, it did not
identify a number of the problems highlighted in this report. A USAID/Mali monitoring and
evaluation officer said the assessment focused on partners’ understanding of the indicators
(their definitions and measurements), but the staff did not review the supporting documentation
to assess the reliability, validity, or integrity of the data.

These problems indicate that the mission did not emphasize tracking of results. Data for four of
the seven indicators audited could not be used to inform management reliably whether
implementation was on track, and the audit team could not determine the extent to which USAID
was progressing toward its objectives. To improve the quality of data and the integrity of the
reporting process, we make the following recommendations. (Since INTSORMIL has ended,
there is no recommendation specific to that project.)

    Recommendation 1. We recommend that USAID/Mali perform extensive, detailed data
    quality assessments for economic growth indicators and document the use of
    assessment findings to address any weaknesses identified.

    Recommendation 2. We recommend that USAID/Mali work with Abt Associates Inc. to
    implement an appropriate data collection and verification system and require that it is
    documented appropriately in the performance management plan.

    Recommendation 3. We recommend that USAID/Mali disclose data weaknesses
    regarding unreliable, inaccurate, and unsupported data for some of the mission’s
    economic growth activities in its next Federal Managers’ Financial Integrity Act
    evaluation.

Mission Did Not Monitor Projects
Adequately
USAID’s contracts and cooperative agreements are monitored by the contract/agreement officer
(CO/AO) and the contracting/agreement officer’s representative (COR/AOR). The CO/AO
designates a COR/AOR to administer certain aspects of the award to ensure that “USAID
exercises prudent management over its awarded assistance and makes the achievement of

6
  This figure is based on what IICEM’s monitoring and evaluation officer said. The exact amount is
unknown since some supporting documents were not available for review.


                                                                                                6
program objectives easier by monitoring and evaluating the recipient and its performance during
the award,” according to ADS 303.2(f). The COR designation letter for IICEM states that the
COR is responsible for monitoring the contractor’s performance and verifying that it conforms to
the technical requirements and quality standards agreed to in the terms and conditions. The
COR is responsible also for providing financial oversight by reviewing the contractor’s request
for payments, giving or denying administrative approval, and recommending disallowance of
costs to the CO.

The importance of proper oversight is reflected in ADS 202.3.6, which states that monitoring the
quality and timeliness of implementing partners’ activities is a major task of contracting officer’s
representatives and development objective teams. It specifies that “problems in output quality
provide an early warning that results may not be achieved as planned” and that “early action in
response to problems is essential in managing for results.”

However, the audit identified several areas in which the mission did not monitor IICEM, MAVEN,
and INTSORMIL adequately.

Lack of Financial Monitoring. One of the COR/AOR’s tasks is to review partners’ vouchers to
determine the allowability and reasonableness of the expenses. According to Office of
Management and Budget Circular A-122,7 “A cost is reasonable if, in its nature or amount, it
does not exceed that which would be incurred by a prudent person under the circumstances
prevailing at the time the decision was made to incur the costs.”

IICEM spent $54,000 on what we consider unnecessary office rent. It had two offices in
Bamako: a house rented since 2007 that had been used since the first IICEM project8 and a
floor in the building across the street that was used to accommodate extra staff members who
came in 2010. However in 2011, several left when the project’s scope was reduced.

At the time of audit fieldwork, 13 staff members were in the second building, but there were
9 available workstations in the house. Just prior to that, between January and October 2012,
IICEM was renting space in the second building for only four to six employees. However, there
were areas in the house that we believe IICEM could have converted into office spaces, which
would have accommodated the entire staff and saved the additional cost of renting space in the
second building. Given that space’s monthly rent of approximately $4,500, we question the
eligibility of $54,000 (or 12 months’ rent, from January to December 2012, when the project was
scheduled to end).

Failure to Approve Key Deliverables. Partners’ performance management plans (PMPs) and
work plans are important performance management tools for monitoring, evaluating, and
analyzing progress toward achieving results.

According to mission officials, they extensively reviewed and commented on partners’ PMPs
and work plans. However, according to implementing partners, the COR/AOR had not formally
approved many of these plans as of October 2012. Though both IICEM’s and MAVEN’s
agreements state that USAID would be substantially involved in approving work plans, none of
IICEM’s work plans for the entire 3 years of the project had been approved. For MAVEN, the
AOR never approved the year 1 work plan (covering April 2010 to March 2011) and only
approved the second year’s plan (covering October 2011 to September 2012) 6 months into the

7
    “Cost Principles for Non-Profit Organizations,” revised May 10, 2004.
8
    The audited IICEM project is actually a follow-on to a previous one.


                                                                                                  7
year. There was also a 6-month period between work plans (from April 2011 to
September 2011) when MAVEN was operating without any plan at all. Additionally, with only
1 year or less of project implementation remaining, IICEM’s and MAVEN’s PMPs had still not
been approved. As for INTSORMIL, project officials did not know whether USAID officially
approved such plans, but assumed it had since the mission continued to provide funding.

Infrequent, Irregular Site Visits. Site visits are essential to monitoring the quality of activities
being carried out and ensuring that the desired results are achieved. However, the mission’s
monitoring site visits were infrequent and irregular, as shown in Table 3 below.

                     Table 3. Monitoring Site Visits Performed by Mission9
                   Project              2010                 2011               2012
                IICEM                      3                   1                   0
                INTSORMIL                  1                   3                   0
                MAVEN                      0                   0                   1

Additionally, the mission did not assess partners’ data quality when monitoring during site visits.
While Mission Order 200 and the mission’s field visit checklist expect staff members to comment
on whether partners’ performance monitoring tools are complete, well designed, administered,
and maintained, neither explicitly requires the staff to reconcile, validate, or spot-check data.

All of these problems occurred because of political turmoil and staffing issues.

In 2010 and 2011, the economic growth team was understaffed. This situation got worse in
March 2012, when members of the military toppled the Malian Government. In the 6 months that
followed, security conditions and restrictions impaired the staff’s ability to visit sites, especially in
regions bordering rebel-occupied territories. Four U.S. citizens on the team were evacuated,
which significantly reduced capacity even more.

Currently some members of the mission staff have had to take on excess responsibilities, and
some of the CORs/AORs are assigned too many tasks to oversee the three projects audited
properly. Furthermore, the turnover for AORs/CORs has been high for all three projects, which
has made it difficult for both the partners and the mission in terms of continuity.

As a result, projects might not achieve their intended objectives, and $54,000 of project funds
could have been used more effectively. To address these problems, we make the following
recommendations.

    Recommendation 4. We recommend that USAID/Mali provide and document training
    for the economic growth team’s contract/agreement officer’s representatives on their
    official roles and responsibilities.

    Recommendation 5. We recommend that USAID/Mali determine the allowability of
    $54,000 in ineligible questioned costs and recover from Abt Associates Inc. any amounts
    determined to be unallowable.

    Recommendation 6. We recommend that USAID/Mali implement a plan to improve the

9
  A USAID/Mali official confirmed the figures in table during fieldwork and outlined the monitoring-specific
site visits performed during the year.


                                                                                                          8
   economic growth team’s performance monitoring of projects.

   Recommendation 7. We recommend that USAID/Mali establish written policies and
   procedures to include data verification as part of performance monitoring site visits.

Mission Did Not Fully Comply With
Environmental Requirements
The Foreign Assistance Act of 1961, as amended, Section 117, requires that USAID consider
the environmental impact and sustainability of its development activities. This requirement is
codified in 22 Code of Federal Regulations (CFR) 216 and in ADS 204. The code requires that
environmental safeguards be incorporated into program planning and design, and that programs
be monitored continually and modified when necessary to mitigate their impact on the
environment.

Missions are required to perform an initial environmental examination or an environmental
assessment, which is a more detailed study, to review the reasonably foreseeable effects of a
proposed action on the environment. When these assessments impose conditions on project
activities, an environmental monitoring and mitigation plan must follow. ADS 204 requires that
CORs/AORs actively monitor ongoing activities to be sure they comply with the environmental
examinations and assessments, and modify or end activities that do not.

Additionally, following an OIG audit report (Report No. 9-000-11-002-P, dated July 21, 2011),
USAID/Washington sent a letter to missions asking them to establish and implement procedures
to strengthen environmental compliance in the procurement process and when monitoring
environmental compliance during project implementation. It also asked missions to formally
designate environmental officers to oversee compliance with 22 CFR 216.

The audit found that USAID/Mali made noteworthy progress in this area. For example, the
mission designated an environmental officer and deputy, and it provided training on
environmental compliance to the mission’s staff and partners.

Despite these efforts, the mission still has not established written procedures to ensure
environmental compliance. A draft mission order was written, but the environmental officer said
it would not be final until April or May 2013.

IICEM was implementing activities that could have an effect on the environment, according to
an initial environmental examination. However, USAID/Mali did not confirm that Abt Associates
prepared and submitted an environmental mitigation and monitoring plan, as required. In
addition, IICEM’s award did not contain the recommended language from ADS 204.5 about
environmental compliance. The mission decided not to amend the award because it expired in
December 2012, but the environmental officer said all new awards would incorporate this
language.

These shortcomings can be attributed to insufficient follow-up by the mission regarding
environmental requirements. IICEM officials were not aware that they were supposed to submit
an environmental mitigation and monitoring plan. Since IICEM was not fully aware of its
responsibilities and the mission had delayed finalizing its mission order to ensure environmental
compliance, we determined that the mission did not consider these items to be priorities.




                                                                                               9
Because the mission did not fully comply with USAID environmental regulations, its activities
might have an adverse effect on the environment and hinder the program’s ability to meet its
intended objectives. To strengthen USAID/Mali’s environmental compliance, we make the
following recommendations.

   Recommendation 8. We recommend that USAID/Mali finalize its mission order to
   require compliance with environmental requirements for its entire portfolio.

   Recommendation 9. We recommend that USAID/Mali take measures to require that all
   future contracts, agreements, and modifications incorporate appropriate language
   regarding environmental compliance and are approved by the appropriate officials prior
   to project implementation.

   Recommendation 10. We recommend that USAID/Mali require Abt Associates Inc. to
   submit an environmental monitoring and mitigation plan for approval within 30 days of
   signing the amended award.

Partners Were Not Fully Compliant
With Branding and Marking Rules
USAID rules and regulations require that assistance activities be properly marked and branded
with the USAID logo and in a manner showing that the assistance is from the American people.
According to ADS 320.3.2.4, and as reflected in IICEM’s and INTSORMIL’s agreements,
commodities or equipment funded by USAID must prominently display the USAID logo and:

       Program, project, or activity sites financed by USAID contracts, including visible
       infrastructure projects (roads, bridges, buildings, etc.) or others that are physical
       in nature (agriculture, forestry, water management, etc.), must prominently
       display the USAID Identity. Temporary signs must be erected early in the
       construction or implementation phase. When construction or implementation is
       complete, the contractor must install a permanent, durable and visible sign,
       plaque, or other marking.

If USAID-required marking would pose compelling political, safety, or security concerns,
partners can ask the CO for a waiver (ADS 320.3.2.6). CORs/AORs are responsible for
monitoring partners’ compliance with these requirements and for taking appropriate action when
they do not comply; in the case of the latter, partners could be considered noncompliant with
their agreements (ADS 320.3.1.3).

We reviewed activities implemented under the IICEM, MAVEN, and INTSORMIL agreements to
determine whether the recipients complied with these requirements. The audit found the
following problems.

	 IICEM had no branding or marking on three warehouses in Molobala, Signé, and
   Kouroumasso (though construction for all was complete); one cereal processing plant
   outside Bamako that was under construction; and one merchant’s warehouse in Sikasso
   constructed in part under an IICEM grant. Rice processing equipment that IICEM financed in
   M’Pegnesso was not marked either.

	 INTSORMIL had no branding or marking at the project site of Dougouan.


                                                                                               10
Clockwise from top left to right, a warehouse in Signé, a cereal processing plant outside Bamako,
warehouse in Molobala, and a warehouse in Kouroumasso all lack branding and marking.
(Photos by RIG/Dakar, October 2012)

The mission did not monitor partners enough to be sure they complied with requirements, nor
did it take any action against those that did not. Project and mission officials cited theft, political
instability, and security risks as some of the reasons project sites, warehouses, and equipment
were not marked or branded properly. However, these problems were not documented
anywhere, and partners did not obtain waivers.

Because branding and marking were not adequate, USAID and the American people might not
receive appropriate recognition for the assistance they are providing. To correct this situation,
the audit makes the following recommendation.

   Recommendation 11. We recommend that USAID/Mali implement written procedures
   to require that the implementing partners are fully aware of their responsibilities and
   comply with branding and marking requirements.




                                                                                                    11
OTHER MATTERS 

Partner Agreements Did Not Include
Human Trafficking Provision
In February 2012 USAID issued a new counter-trafficking in persons policy. It builds on the
Agency’s counter-trafficking code of conduct issued in February 2011 to hold USAID employees
and partners to the highest ethical standard of behavior, and it “is a direct response to the fact
that trafficking in persons is a massive development problem affecting millions of men, women,
and children around the globe.”10 Subsequently, effective June 2012, a new USAID policy was
added to ADS that requires that specific language related to combating human trafficking be
included in partner agreements.

IICEM’s, MAVEN’s, and INTSORMIL’s agreements did not include the counter-trafficking
provision because they were all signed before June 2012. But USAID/Mali did not modify the
contracts to add this required language once it became an ADS requirement.

According to the United Nations Office on Drugs and Crimes, agriculture is one of the sectors
most frequently involved in human trafficking. The U.S. Department of State’s 2012 Trafficking
in Persons Report states, “Mali is a source, transit, and destination country for men, women,
and children subjected to forced labor and sex trafficking,” and Malian women, girls, and boys
have been forced to work in agriculture. The report ranks Mali as a Tier 2 country11 for human
trafficking, meaning the Malian Government does not fully comply with the minimum standards
to eliminate trafficking but is making significant efforts to do so.

Given the circumstances in Mali, there is a risk of human trafficking within agriculture projects,
and USAID may or may not be indirectly involved. Without the inclusion of the counter-trafficking
provision, USAID/Mali cannot terminate an award, without penalty, if the partner, subpartner, or
their employees engage in human trafficking, procure a commercial sex act during the course of
the award, or use forced labor when implementing project activities. Because all three awards
were signed before the requirement was added to ADS, we are not making a formal
recommendation, but we encourage the mission to include the required language combatting
human trafficking in all future modifications to IICEM’s and MAVEN’s agreements.

Loan Guarantees Increase Prospects
For Sustainability
Part of IICEM’s strategy for addressing sustainability is to establish a loan guarantee fund that
provides an incentive for banks to lend to farmers. The fund is set up to share risk with the bank
over a 2-year period, repaying 50 percent of defaulted loans in the first year and 25 percent in
the second year.

According to IICEM officials, these loan guarantees are important for several reasons. First,
they allow farmers to get agricultural supplies such as seeds and fertilizer. By using improved

10
  http://pdf.usaid.gov/pdf_docs/PDACT111.pdf. 

11
  The report lists countries by the following tiers: Tier 1, Tier 2, Tier 2 Watch List, and Tier 3, with the 

lowest numbers going to countries most compliant. 



                                                                                                         12
varieties of seeds and fertilizer on their fields, farmers can increase crop yield significantly. This
not only helps ensure food for the farmers and their families, but also increases their incomes
when they have surplus to sell. Second, because millet and sorghum are not seen as cash
crops that have a significant return on investment, the loan guarantees serve as a temporary
bridge between bank and farmer; they give the farmer access to financing until the bank gains
confidence in the profitability of millet/sorghum production.

IICEM’s loan guarantees have proven to be successful. For the 2011 growing season, 86 to
90 percent of farmers were able to repay their loans. Farmers typically take out loans in March,
April, and May, and repay them in January, February, and March of the following year. If IICEM
is extended until December 2013, loans that are taken out for the 2013 growing season would
not be paid back until January, February, and March 2014, after the project ends. Because
IICEM cannot follow up on those loans and return the balance to USAID, the Agency has
discontinued them for the 2013 season.

USAID/Mali recognizes the importance of loan guarantees in increasing sustainability prospects
and in expanding the adoption of new technologies and inputs. Thus, as an alternative, the
mission proposed to go through the Development Credit Authority (DCA)—another USAID
mechanism for providing loan guarantees. However, following the coup in March 2012,
USAID/Washington suspended all activities except for those that dealt with food security and
emergency aid. IICEM’s suspension was lifted quickly because the project directly addresses
food security, but the DCA program remains suspended. Although USAID/Mali asked that the
DCA program be started to provide loan guarantees for the farmers, USAID/Washington denied
the request.

USAID/Washington’s denial could affect the mission’s efforts to increase sustainability. Given
the current political instability in Mali, we are not making a formal recommendation. But we
encourage the mission to explore ways to help farmers get supplies, including ways to continue
the loan guarantee fund.




                                                                                                   13
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Mali agreed with all 11 recommendations. We have
acknowledged management decisions for Recommendations 1 through 4 and 6 through 11.
Final action has been taken on Recommendation 10, and that is closed upon issuance of the
audit report. We agreed with all decisions. Recommendation 5 remains without a management
decision because, in accordance with ADS 595.3.1.2, a management decision cannot be
reached until the contract officer specifies the amount of questioned costs—$54,000 in this
case—allowed and/or disallowed and sets a target date for collection of any disallowed costs.

We also have addressed the mission’s comments in the final audit report, as we deemed
appropriate, regarding the lack of financial monitoring and failure to approve key deliverables. A
detailed evaluation of management comments follows.

Recommendation 1. USAID/Mali agreed that measures should be taken to improve the quality
of its data assessments and address any deficiencies that are found. The economic growth
team is developing a site visit plan that will include project data verification. The M&E officer will
review the plan to make sure that key indicators are assessed using the Agency’s data quality
criteria along with appropriate documentation. The team also is clarifying performance
management and monitoring requirements for future contracts and grants, and is working with
existing implementing partners to verify that each PMP includes adequate information on data
collection and reporting methodologies. The target completion date for this action is March 31,
2014. As a result, we acknowledge that a management decision was reached on
Recommendation 1.

Recommendation 2. USAID/Mali agreed to work with Abt Associates Inc. to implement an
appropriate data collection and verification system, and to confirm that the system is
documented in the PMP. Abt Associates has already taken measures to improve its M&E
system by creating new forms to better capture data, training subpartners in their use,
establishing beneficiary registries, and introducing new ways to validate data. Abt Associates
has hired a new M&E specialist and plans to update its PMP to reflect changes to its M&E
system. The target completion date for this action is June 30, 2013. As a result, we
acknowledge that a management decision was reached on Recommendation 2.

Recommendation 3. USAID/Mali agreed that some data reported were not supported
adequately and that their accuracy could therefore be questioned. The mission will report this
deficiency in its next Federal Managers’ Financial Integrity Act evaluation. The target date for
completion is September 30, 2013. As a result, we acknowledge that a management decision
was reached on Recommendation 3.

Recommendation 4. USAID/Mali agreed to hold biannual, in-house refresher training sessions
for all CORs and AORs. The target completion date for the trainings is March 31, 2014. The
mission also submitted the original designation letters in which CORs/AORs acknowledge their
roles and responsibilities, but some of these letters date back to 2007, 2008, and 2009. This
does not address the fact that some CORs/AORs need to be reminded of their roles and
responsibilities, as observed during the audit. Although the mission requested that this


                                                                                                   14
recommendation be closed upon issuance of the final report, we cannot do so until the training
has been completed. As a result, we acknowledge that a management decision was reached on
Recommendation 4.

Recommendation 5. USAID/Mali agreed to have the Office of Acquisition and Assistance
determine the allowability of the questioned costs identified in the audit. Mission officials
disagreed that there was a lack of financial monitoring because, they contended, the questioned
costs were based on auditors’ judgment. We still believe, however, that IICEM’s rental of the
second building was not a prudent use of federal funds. The target completion date for this
action is December 31, 2013. In accordance with ADS 595.3.1.2, a management decision
cannot be reached until the contract officer makes a determination on the costs’ allowability,
specifies the amount allowed and/or disallowed, and sets a target date for collecting the
amount. Thus, there is no management decision for Recommendation 5.

Recommendation 6. USAID/Mali agreed that it had not devoted enough time and effort to
performance management and monitoring. The economic growth team is updating its PMP and
is scheduling a project site visit calendar to ensure adequate performance monitoring and data
verification. If security conditions prevent the team from visiting sites, the mission will devise a
plan for third-party monitoring. The target completion date for this action is March 31, 2014. As a
result, we acknowledge that a management decision was reached on Recommendation 6.

Recommendation 7. USAID/Mali agreed to establish written policies and procedures to include
data verification during performance monitoring site visits. A new mission order on performance
monitoring will include this guidance. The target completion date for this action is March 31,
2014. As a result, we acknowledge that a management decision was reached on
Recommendation 7.

Recommendation 8. USAID/Mali agreed to finalize its mission order on environmental
compliance. The target completion date for this action is May 31, 2013. As a result, we
acknowledge that a management decision was reached on Recommendation 8.

Recommendation 9. USAID/Mali agreed to take measures to require that all future contracts
and agreements incorporate the appropriate language regarding environmental compliance.
Mission officials said all USAID/Mali awards have the standard provision. Moving forward, the
COR/AOR designation letters will highlight environmental compliance responsibilities, and all
new awards and programmatic modifications will require the environmental officer’s clearance.
The target completion date for this action is June 30, 2013. As a result, we acknowledge that a
management decision was reached on Recommendation 9.

Recommendation 10. USAID/Mali agreed with the recommendation, and Abt Associates has
already submitted an environmental monitoring and mitigation plan, which was approved by
USAID on January 15, 2013. Accordingly, final action was taken, and Recommendation 10 is
closed upon issuance of the audit report.

Recommendation 11. USAID/Mali agreed to implement procedures to enforce compliance with
branding and marking requirements. The mission will update its activity visit information
checklist to include monitoring for compliance on branding and marking requirements and will
also include these oversight responsibilities in the COR/AOR designation letters. The target
completion date for this action is June 30, 2013. As a result, we acknowledge that a
management decision was reached on Recommendation 11.



                                                                                                 15
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
They require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions in accordance with our audit
objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Mali’s economic growth activities
were on track to achieve their main goals of improving the agricultural enabling environment and
the productivity of the agricultural sector. Of the 17 economic growth projects that were active in
FY 2012, we reviewed 3 that accounted for approximately 52 percent of the mission’s economic
growth assistance, listed in Table 1 on page 1.

The audit focused on economic growth activities occurring in fiscal years 2011 and 2012. In
FY 2011, USAID/Mali obligated $22.1 million and disbursed $19.9 million; in FY 2012, it
obligated $24.2 million and disbursed $17.7 million. Of those disbursements, the amount tested
for IICEM, INTSORMIL, and MAVEN was $11.3 million in FY 2011 and $15.6 million in
FY 2012.

We reviewed applicable laws and regulations, USAID policies and procedures, and
USAID/Mali’s mission orders. We obtained an understanding of and assessed the following
significant internal controls: the program’s management structure, contracting mechanisms,
monitoring and evaluation of project activities, and site visit processes. This included a review of
COR/AOR designation letters, partner agreements, progress reports, work plans, PMPs, data
quality assessments, trip reports, Feed the Future strategy and guidance documents, and
interviews with officials from the mission as well as partners, subpartners, and beneficiaries.
Additionally, we examined the mission’s FY 2012 annual self-assessment of management
controls, which it is required to perform to comply with the Federal Managers’ Financial Integrity
Act of 1982, to determine whether the assessment cited any relevant weaknesses.

We conducted audit fieldwork from October 9 to November 30, 2012, and performed site visits
from October 15 to 19. We interviewed key mission personnel, implementing partners,
subpartners (Groupe de Recherche d’Etude et de Formation en Agriculture et Arboriculture,
Agence des Intervenants Interdisciplinaires pour le Développement, and Association Malienne
d’Eveil au Développement Durable), government officials from the L’Institut d’Economie Rurale,
and project beneficiaries, including producers, processors, and merchants. We conducted the
audit at USAID/Mali in Bamako and at implementing partner and subpartner offices and activity
sites in Bamako and the Sikasso Region. Our fieldwork was limited to those sites because of
security concerns in northern Mali.

Methodology
To answer the audit objective, we evaluated the mission’s management and oversight of its
economic growth activities, the performance of implementing partners, and the effectiveness of
the activities being implemented. We met with the economic growth team in Mali to gain an
understanding of the program activities. We selected three projects to audit and reviewed



                                                                                                 16
                                                                                       Appendix I


agreements, progress reports, PMPs, work plans, site visit reports, and annual certification
required by the Federal Managers’ Financial Integrity Act. We reviewed applicable laws and
regulations, ADS policies and procedures, mission orders, and Feed the Future guidance.

We performed site visits in Bamako and the Sikasso Region to see whether activities were
being implemented, monitored, and evaluated as required. In selecting a sample of activities to
visit, we chose activities that were in progress during our fieldwork, located in areas where other
key program activities were being implemented, and representative of the projects’ agricultural
activities. During these visits, we interviewed staff members from implementing partners and
subpartners, as well as beneficiaries.

We also verified partners’ reported results for FY 2011 (as shown in Appendix III) and examined
supporting documentation for 103 out of 402 cooperatives for 2 of IICEM’s indicators for
FY 2012. Because MAVEN’s and INTSORMIL’s monitoring and evaluation officers were based
in the United States along with essential records and supporting documentation, we continued
to validate partner data in Senegal once we left Mali.

The results and overall conclusions related to this testing were limited to the items tested and
cannot be projected to the entire audit universe. However, we believe that our work provides a
reasonable basis for our conclusions.




                                                                                                17
                                                                                              Appendix II



MANAGEMENT COMMENTS 



Memorandum 

 
Date:           April 18, 2013
To:             Abdoulaye Gueye, RIG/Dakar
From:           Gary Juste, Mission Director /s/

Subject:        RIG Draft Report No. 7-688-13-00XP: Audit of USAID/Mali Economic Growth
                Activities.
 
This memorandum transmits USAID/Mali’s management comments to the recommendations contained in
the subject Audit draft report. We take this opportunity to thank you for sharing the draft and giving us
the opportunity to offer clarifications and the Mission’s response. We also wish to extend our sincere
appreciation for the professionalism of your audit team during the entire audit process including the field
work.

Attachment: USAID Mali management comments with attachments.




                                                                                                        18
                                                                                        Appendix II


                                   Management Comment
The Mission expresses its overall agreement with the findings and recommendations but asks
that two findings be reconsidered to provide greater balance. One, we do not agree with the
finding on page 7 which states that there was a Lack of financial monitoring. This finding is
based primarily on what the auditors considered to be excess office space at the Abt office in
Bamako, but this is a matter of disagreement. Two, we ask that language be inserted into the
section entitled “Failure to approve key deliverables” to make it clear that work plans were
reviewed extensively and commented on. Otherwise, it gives a perception that the Mission does
not take seriously and perform its project management duties.

The Mission agrees with the recommendations and specifies below Mission actions to address
and close the recommendations:

Recommendation 1. We recommend that USAID/Mali perform extensive and detailed
data quality assessments for economic growth indicators and document the use of
assessment findings to address any weaknesses identified.

Mission Agrees with the Recommendation. The AEG team performs regular data quality
assessments and the last one performed was in 2011 as noted in the audit. However, the Mission
agrees that measures should be taken to improve further the quality of these assessments and the
measures taken to address deficiencies identified therein. The AEG team is developing a project
site visit plan that will include the purpose of each visit, some of which will be devoted partly or
wholly to data verification.

The M&E Officer will review the plan to make sure that principal data indicators being used to
track program performance will have been assessed using the Agency’s data quality criteria
along with appropriate documentation. [Note: at present, all site visits outside of Bamako
require RSO approval and for US citizens are generally limited to one-day visits unless RSO
coverage can be provided for an over-night trip.] For AEG contracts and grants, in each of the
procurement designs, AEG is specifying more clearly performance management and monitoring
requirements within the implementing mechanism as well as making it part of the evaluation
criteria.

AEG is working with existing implementing partners to ensure that each implementing
mechanism has a solid Performance Monitoring Plan along with documentation on data
collection and reporting methodology. AEG is also working with the M&E point of contact
within BFS to procure a monitoring and evaluation mechanism that will assist in establishing
baselines, evaluations, and helping the AEG M&E officer with data quality analysis. USAID
expects to have this mechanism by the end of the year. The planned date for completion is
March 31, 2014. Accordingly, a management decision is reached on this recommendation.


Recommendation 2. We recommend that USAID/Mali work with Abt Associates Inc. to
implement an appropriate data collection and verification system and require that it is
documented appropriately in the partner’s performance management plan.




                                                                                                  19
                                                                                      Appendix II


Mission Agrees with the Recommendation: There is less than one year left in the Abt contract.
Measures are well underway to improve the quality of monitoring and reporting on performance
indicators. These include but are not limited to the following: new data collection forms tailored
to more precisely capture the number of hectares, types of technologies adopted, and number of
farmers adopting these technologies. Implementing partners under the Abt contract have been
trained in their use and database entry is in progress.

To strengthen the data validation, registries at the level of the producer organizations are being
established. GPS units have been procured and distributed to partner NGO’s to conduct sample
measurements in order to validate the producers’ reports. A new M&E specialist has been hired
by Abt. Other procedures for strengthening internal controls are being put in place. The revised
PMP will reflect these measures. The planned date for completion is June 30, 2013.
Accordingly, a management decision is reached on this recommendation.

 Recommendation 3. We recommend that USAID/Mali disclose data weaknesses
regarding unreliable, inaccurate, and unsupported data for some of the mission’s
economic growth activities in its next Federal Managers’ Financial Integrity Act
evaluation.

Mission agrees with the Recommendation. Mission agrees that some data reported was not
adequately supported and thus their accuracy could be questioned. The deficiency will be
reported in the next FMFIA reporting. The planned date for completion is September 30, 2013.
Accordingly, a management decision is reached on this recommendation.

Recommendation 4. We recommend that USAID/Mali provide and document training for the
economic growth team’s contract/agreement officer’s representatives on their official roles and
responsibilities.

Mission agrees with the Recommendation. All designated C/AORs have complied with
training requirements before being issued a letter. The AAO will continue to hold bi-annual, in-
house refresher training sessions for all C/AORs and activity managers. Letters issued to
cognizant C/AOR confirming their official designation are attached (attachment A). Based on
these letters, Mission requests the closure of this recommendation up on issuance of the final
audit report.

Recommendation 5. We recommend that USAID/Mali determine the allowability of
$54,000 in ineligible questioned costs and recover from Abt Associates Inc. any amounts
determined to be unallowable.

Mission agrees with the Recommendation. The Office of Acquisition and Assistance (OAA)
will perform due diligence to make the final determination on the allowability of the questioned
costs identified by the audit. The planned for completion is December 31, 2013. Accordingly, a
management decision is reached on this recommendation.


Recommendation 6. We recommend that USAID/Mali implement a plan to improve the
economic growth team’s performance monitoring of projects.



                                                                                               20
                                                                                         Appendix II


Mission agrees with the Recommendation. The Mission recognizes that insufficient time and
effort has been devoted to performance management and monitoring, especially in consideration
of the extreme staff shortages over the past year associated with the two evacuations, staffing
consequences, and adverse security conditions. [The chart on p. 8 understates the number of site
visits, however. There were two additional site visits done in 2011.] The AEG team is updating
its Performance Monitoring Plan (full revision requires baseline data which will only become
available towards the end of the calendar year), and is elaborating a Project Site visit calendar to
ensure adequate performance monitoring and data verification.

The team will continue to work with the Regional Security Officer to arrange these site visits
according to their security requirements. If site visits that are needed cannot be undertaken on
account of security considerations, the Mission will devise a plan for third party monitoring of
AEG sites. USAID/Mali is currently working with the M&E point of contact in BFS to procure
a monitoring and evaluation mechanism that will assist in establishing baselines, evaluations, and
support the M&E officer with data quality analysis. The planned date for completion is March
31, 2014. Accordingly, a management decision is reached on this recommendation.

Recommendation 7. We recommend that USAID/Mali establish written policies and
procedures to include data verification as part of performance monitoring site visits.

Mission agrees with the Recommendation. The new Mission Order on Performance
Monitoring provides guidance on data verification. See above for further elaboration. The
planned date for completion is March 31, 2014. Accordingly, a management decision is reached
on this recommendation.

Recommendation 8. We recommend that USAID/Mali finalize its mission order to
require compliance with environmental requirements for its entire portfolio.

Mission agrees with the Recommendation. There is a draft Environmental Compliance
Mission Order which is being finalized. The planned date for completion is May 31, 2013.
Accordingly, a management decision is reached on this recommendation.

 Recommendation 9. We recommend that USAID/Mali take measures to require that all future
contracts, agreements, and modifications incorporate appropriate language regarding
environmental compliance and are approved by the appropriate officials prior to project
implementation.

Mission agrees with the Recommendation. All USAID/Mali awards, as required, have the
standard provision/clause on environment compliance. Moving forward, the C/AOR designation
letter will specifically highlight C/AOR environmental compliance responsibilities. The
Program Office will revise the pre-GLAAS checklist to include the clearance Mission
Environmental Officer clearance for all new awards and programmatic modifications. The
planned date for completion is June 30, 2013. Accordingly, a management decision is reached on
this recommendation.

Recommendation 10. We recommend that USAID/Mali require Abt Associates Inc. to submit
an environmental monitoring and mitigation plan for approval within 30 days of signing the



                                                                                                  21
                                                                                       Appendix II


amended award.

Mission agrees with the Recommendation. Abt submitted an Environmental Mitigation Plan
which has been approved by the COR in consultation with the Mission’s Environmental Officer
as of January 15, 2013. Based on the attached copy of the plan (attachment B), Mission requests
the closure of this Recommendation up on issuance of the final report.

Recommendation 11. We recommend that USAID/Mali implement written procedures to
require that the implementing partners are fully aware of their responsibilities and comply with
branding and marking requirements.

Mission agrees with the Recommendation. As required, all awards include the
provision/clause on branding and marking; implementing partners are reminded of this
responsibility during the post-award meeting.

In order to provide better monitoring, the Mission’s ‘Activity Visit Information Checklist’ will
be updated by the Program Office not later than June 30, 2013 to include compliance on
branding and marketing requirements, and as of now, AAO will ensure that the marking and
branding oversight responsibility is clearly highlighted in the C/AOR designation letter. Based
on the planned completion date of June 30, 2013, a management decision is reached on this
recommendation.


             




                                                                                                   22
                                                                                           Appendix III



FY 2011 Audited                                                      INTSORMIL
                                              IICEM                                         MAVEN
                                                                    (University of
Program Indicators                     (Abt Associates Inc.)                              (ACDI-VOCA)
                                                                      Nebraska)
Number of farmers and others who have applied new technologies or management practices as a result
of U.S. Government assistance
Did partner report on this indicator?              Yes                        Yes                N/A
Were data validated?                                No                        No                 N/A
                                         Insufficient supporting
                                         documentation.
                                         Undocumented and           Insufficient
Comments                                 inaccurate                 supporting                   N/A
                                         assumptions and            documentation.
                                         estimates made in
                                         reporting results.
Number of individuals who have received U.S. Government-supported, long-term agricultural sector
productivity or food security training
Did partner report on this indicator?               N/A                       Yes                N/A
Were data validated?                                N/A                       Yes                N/A
Comments                                            N/A                      None                N/A
Number of individuals who have received U.S. Government-supported, short-term agricultural sector
productivity or food security training
Did partner report on this indicator?              Yes                        Yes                Yes
Were data validated?                               Yes                        No                 Yes
                                                                    Insufficient
Comments                                           None             supporting                  None
                                                                    documentation.
Number of hectares under improved technologies or management practices as a result of U.S.
Government assistance
Did partner report on this indicator?              Yes                        Yes                N/A
Were data validated?                                No                        No                 N/A
                                         Insufficient supporting
                                         documentation.
                                         Undocumented and           Insufficient
Comments                                 inaccurate                 supporting                   N/A
                                         assumptions and            documentation.
                                         estimates made in
                                         reporting results.
Number of policies/regulations/administrative procedures in each of the following stages of development
as a result of U.S. Government assistance in each case:
                  Stage 1: Analyzed
                  Stage 2: Drafted and presented for public/stakeholder consultation
                  Stage 3: Presented for legislation/decree
                  Stage 4: Passed/approved
                  Stage 5: Passed for which implementation has begun
Did partner report on this indicator?              Yes                        N/A                N/A
Were data validated?                               Yes                        N/A                N/A
Comments                                           None                       N/A                N/A
Value of incremental sales (collected at farm-level) attributed to Feed the Future implementation
Did partner report on this indicator?              Yes                        N/A                N/A
Were data validated?                                No                        N/A                N/A
                                         Insufficient supporting
Comments                                 documentation. Also                  N/A                N/A
                                         overreporting results.



                                                                                                      23
                                                                                            Appendix III



FY 2011 Audited                                                       INTSORMIL
                                               IICEM                                         MAVEN
                                                                     (University of
Program Indicators                      (Abt Associates Inc.)                              (ACDI-VOCA)
                                                                       Nebraska)
Value of new private sector investment in the agriculture sector or food chain leveraged by Feed the
Future implementation
Did partner report on this indicator?             Yes                       N/A                 N/A
Were data validated?                              Yes                       N/A                 N/A
Comments                                         None                       N/A                 N/A




                                                                                                       24
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
